                                    NATIONAL SCIENCE FOUNDATION
                                     OFFICE OF INSPECTOR GENERAL
                                      OFFICE OF INVESTIGATIONS

                                   ACTION MEMORANDUM
                          i

Subject:


Action:

   1. This case was open& when a student participant alleged that the PI failed to pay him wages
      for his research on the project and when the same student hinted that the PI might have
      falsely billed NSF for expenses incurred by student participants.
                              I/
   2. The complainant provided no evidence of impropriety on the part of the PI and failed to
      contact the case agent after four attempts to arrange a phone interview. A review of Records
      requested fiom the awardee institution did not indicate any impropriety, nor did the records
                           11
      indicate any misrepresentation of charges made to the award. The investigation showed that
      allegations of fraud or theft of NSF funds made by the complainant were unsubstantiated.
                              I
   3. The case agent called the awardee institution's Director of Accounting and notified them that
      no further action will be taken by the OIG at this time and this investigation is closed. [The
      grant jackets have been returned to the program.]
                              I1
